Department of Homeland Security
   Ofﬁce of Inspector General

             Opportunities to Improve FEMA’s 
 

            Public Assistance Appeals Process
 





OIG-11-49                                          March 2011
                                                                  Office ofInspector General

                                                                   U.S. Department of Homeland Security
                                                                   Washington, DC 25028



                                                                  Homeland
                                                                  Security
                                   MAR     2 2011

                                         Preface


The Department of Homeland Security (DHS) Office ofInspector General (DIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports published as part of our oversight responsibilities to promote economy,
effectiveness, and efficiency within the department.

This report addresses the strengths and weaknesses of the Federal Emergency Management
Agency's Public Assistance appeals process. We contracted with the independent public
accounting firm of Foxx & Company to perform the audit. The contract required that Foxx
& Company perform its audit according to generally accepted government auditing
standards.

Foxx & Company is responsible for the attached auditor's report dated, February 3, 2010,
and the conclusions expressed in the report.

The recommendations herein have been developed with the best knowledge available to
our contractor. We trust that this report will result in more effective, efficient, and
economical operations. We express our appreciation to all who contributed to the
preparation of this report.


                                     Matt adacki
                                     Assistant Inspector General
                                     Office of Emergency Management Oversight
February 3, 2011

Mr. Matt Jadacki
Assistant Inspector General for Emergency Management Oversight
Office of Inspector General
Department of Homeland Security
245 Murray Drive, SW, Building 410
Washington, DC 20528

Dear Mr. Jadacki:

Foxx & Company performed an audit of the Federal Emergency Management Agency’s
(FEMA) Public Assistance appeals process. The audit was performed according to
Task Order No. TPDFIGBPA070007, Task Order No. 0001, dated September 28, 2009.

This report presents the results of the audit and includes recommendations to improve
FEMA’s timeliness in processing appeals, appeal decision reporting, and service to
Public Assistance applicants.

Our audit was conducted according to applicable Government Auditing Standards, July
2007 revision. The audit was a performance audit as defined by Chapter 1 of the
Standards, and included a review and report of program activities with a compliance
element. We did not perform a financial audit, the purpose of which would be to render
an opinion on the agency’s financial statements.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please call me at (513) 639-8843.

Sincerely,

Foxx & Company



Martin W. O’Neill
Partner
Table of Contents/Abbreviations
Executive Summary ...................................................................................................................1 
 


Background ................................................................................................................................2
 


Results of Audit ..........................................................................................................................4 
 


     Processing Delays ..................................................................................................................4
 

     Recommendations..................................................................................................................8
 

     Management Comments and Contractor Analysis ................................................................8 
 


     Second-Level Appeals Tracking and Reporting ..................................................................10 
 

     Recommendations................................................................................................................12
 

     Management Comments and Contractor Analysis ..............................................................12 
 


     Opportunities to Better Serve PA Applicants ......................................................................13 
 

     Recommendations................................................................................................................16
 

     Management Comments and Contractor Analysis ..............................................................16 
 



Appendixes
     Appendix A: Purpose, Scope, and Methodology .................................................................18 
 

     Appendix B: Management Comments on the Draft Report.................................................20 
 

     Appendix C: Report Distribution.........................................................................................25 
 



Abbreviations
     CFR              Code of Federal Regulations 
 

     DHS              Department of Homeland Security 
 

     FEMA             Federal Emergency Management Agency 
 

     FY               fiscal year 
 

     OIG              Office of Inspector General 
 

     PA               Public Assistance 
 

     USC              United States Code 
 





                             Opportunities to Improve FEMA’s Public Assistance Appeals Process
OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                  Improvements are needed in the Federal Emergency Management
                  Agency’s process for resolving Public Assistance Program appeals.
                  The Public Assistance Program provides assistance for emergency
                  work and permanent work after a presidentially declared disaster.
                  Project worksheets provide the basis for awarding grants and
                  document the location, damage description, scope of work, and cost
                  estimates for each project. Local governments applying for grant
                  funds can appeal Federal Emergency Management Agency
                  decisions concerning project eligibility or ineligible costs. The
                  appeal process provides an opportunity for applicants to have
                  eligibility and funding issues resolved.

                  Although delays occurred at all levels, the delays within
                  headquarters were the most significant. As a result of the delays,
                  appeals remained open for long periods and issues concerning
                  project eligibility and costs remained unresolved.

                  The agency’s tracking system did not include the time regional
                  staff took to review and forward second-level appeals to
                  headquarters; only the headquarters time was reported. As a result,
                  the tracking system understated the time required to resolve
                  second-level level appeals. The regional time averaged about 110
                  days for second-level appeals.

                  Also, the agency did not have an effective process for providing
                  feedback on appeals. It was difficult for states to provide
                  applicants information on the status of open appeals. In addition,
                  although applicants can view past second appeal decisions online,
                  the online system has not been updated with case information since
                  October 2009.

                  We are making seven recommendations to improve the agency’s
                  timeliness in processing appeals, appeal decision reporting, and
                  service to Public Assistance applicants. The agency’s response to
                  our recommendations is summarized and evaluated in the body of
                  this report and included in its entirety as appendix B.



            Opportunities to Improve FEMA’s Public Assistance Appeals Process

                                         Page 1
Background
               Under the Stafford Act (42 USC 5121 et seq.), a Governor may
               request declaration of a major disaster when effective response and
               recovery are beyond the capabilities of the state and affected local
               governments. The Stafford Act defines the Federal Emergency
               Management Agency’s (FEMA’s) role during a declared disaster.

               One of the grant programs available to assist response and
               recovery is the Public Assistance (PA) grant program. Under the
               PA program, FEMA provides grants to state and local government
               agencies, authorized tribal organizations, and specific types of
               nonprofit organizations to help them respond to and recover from a
               presidentially declared disaster. The PA program provides
               assistance for emergency work (such as debris removal) and
               permanent work (such as repairing and replacing damaged
               buildings, utilities, roads, and bridges). Project worksheets provide
               the basis for awarding grants and document the location, damage
               description, scope of work, and cost estimates for each project.

               The PA program is a supplemental assistance grant program
               through which FEMA reimburses applicants for eligible disaster-
               related expenses. The program does not fund the full cost of
               recovery. The PA program provides grants, at a federal cost share
               of not less than 75%, for eligible projects. States and applicants
               bear the non-federal share of eligible project costs and the cost of
               any work that is not eligible under the Stafford Act and FEMA’s
               regulations.

               Federal, state, and local officials each play a significant role in
               administering the PA funding process. FEMA manages the
               program, approves grants, and provides technical assistance to
               states and applicants. The state is the grantee and the local
               government or equivalent entity is the subgrantee or applicant that
               receives the funding. The states educate potential applicants, work
               with FEMA to manage the program, and implement and monitor
               grants awarded under the program. Applicants are responsible for
               identifying damages, submitting PA requests, and completing
               recovery efforts approved under the program.

               Applicants for grant funds can appeal FEMA decisions concerning
               project eligibility or costs. The appeals process provides an
               opportunity for applicants to have eligibility and funding issues
               resolved. Appeals of FEMA decisions can be filed at any time
               during the recovery process, including during project closeout.


         Opportunities to Improve FEMA’s Public Assistance Appeals Process 


                                      Page 2 

      There are two levels of appeal. If FEMA denies a project decision,
      the applicant can file a first-level appeal. An applicant has 60 days
      to file a written appeal with supporting documentation to the state.
      The state then has 60 days to review the appeal and forward it to
      the FEMA regional office. The Regional Administrator must
      provide a written decision to the state within 90 days of the first-
      level appeal.

      If the first-level appeal is denied, the applicant and state each have
      another 60 days to process a second-level appeal. The regional
      office reviews the second-level appeal and forwards it to
      headquarters, where a decision is required within 90 days of receipt.
      The process and time limits for appealing funding decisions are
      established in Title 44 Code of Federal Regulations (CFR)
      § 206.206. Figure 1 describes the appeals process.

             Figure1. FEMA’s Public Assistance Appeals Process

                                                                                                             FEMA regional
                                                                               State reviews the         administrator reviews
       FEMA makes            Applicant                 Applicant files
                                                                             appeal and forward a         applicant appeal and
          project            accepts          No       appeal to state
                                                                              recommendation to          state recommendation
         decision            decision                  within 60 days
                                                                             FEMA within 60 Days         and makes a decision
                                                                                                             within 90 days

                               Yes

                                                                                   Additional                  Additional
                             No Appeal                                           Information is              Information is
                                                                                 gathered from               gathered from
                                                                                   applicant if                applicant if
                                                                                    needed                      needed



                                                                                   Applicant                   Applicant




                                                                                                     FEMA headquarters
            FEMA regional                                              State reviews the              reviews applicant
                                              Applicant may
             administrator                                           appeal and forwards              appeal and state
                                                file second
               approves              No                               a recommendation              recommendation and
                                              appeal to state
              applicant’s                                            to the FEMA region                 makes a final
                                              within 60 days
                appeal                                                  within 60 days                decision within 90
                                                                                                             days


                 Yes
                                                                           Additional                    Additional
                                                                         Information is                Information is
                                                                         gathered from                 gathered from
              No further                                                   applicant if                  applicant if
               appeal                                                       needed                        needed


                                                                           Applicant                     Applicant




Opportunities to Improve FEMA’s Public Assistance Appeals Process 
 


                                          Page 3
 

Results of Audit 

     To provide applicants timely appeal decisions, FEMA needs to improve its
     processing procedures, database tracking system, and status feedback process.
     These areas for improvement are discussed in the following sections.

     Processing Delays
            Delays occurred at all processing levels: applicant, state, FEMA regional,
            and FEMA headquarters. As a result of the delays, appeals remained open
            for long periods and issues concerning project eligibility and costs
            remained unresolved.

                    Applicant and State Delays

                    Summary data on the time it took applicants to submit appeals
                    were not maintained. Our sample of 30 first-level appeal case files
                    showed that applicants submitted 83% of the appeals within the
                    required 60-day period. However, when the appeal was not
                    submitted on time, FEMA procedures allowed the region to
                    determine whether the applicant’s appeal would still be accepted.
                    Regions were inconsistent in denying late appeals. Some officials
                    were more concerned about the merits of the appeal rather than
                    time and made decisions on a case-by-case basis.

                    State officials are required to submit applicant appeals to FEMA
                    within 60 days of receiving an appeal from an applicant. However,
                    the officials said there have been periods when workload or other
                    priorities prevented timely action on appeals. None of the five
                    states we visited kept summary data on compliance. Our review of
                    30 first-level appeal cases showed that states forwarded 70% of the
                    appeals to FEMA within 60 days.

                    State interactions with FEMA regions were inconsistent and
                    contributed to appeals-processing delays. For example, upon
                    receiving the applicant’s appeal letter, states sometimes provided a
                    copy to the region. This practice alerted FEMA that an appeal was
                    being reviewed at the state level and provided an opportunity for
                    follow-up if the 60-day period was approaching. Other states did
                    not follow this practice. Also, some states did not submit appeals
                    timely because some regional officials were willing to process late
                    requests.




              Opportunities to Improve FEMA’s Public Assistance Appeals Process 


                                           Page 4 

                          FEMA Regional Delays

                          Delays existed in processing first-level appeals in the three regions
                          sampled. The regions took more than 90 days to make decisions
                          on 17 (57%) of the 30 appeal cases. In addition, data provided by
                          the three regions showed that a wide range of processing times
                          occurred on first-level appeals (see table 1).

                               Table1. FEMA Regional Office Processing Time

                                         First-Level Appeals Processed
                                      October 2008 through February 2010
                                                 Average
                                                                 Completed
                                   Region       Processing
                                                                 in 90 Days
                                                   Days
                                     A              73              85%
                                     B             132              39%
                                     C             145              27%

                          Staffing methods used by the regions accounted for some of the
                          time variances. One region did not assign staff just to resolve
                          appeals. Program specialists had competing job priorities,
                          including deployments to active disasters and project closeout
                          duties. A second region used staff specifically assigned to evaluate
                          appeals. Another region also used specifically assigned staff at
                          one of its two recovery offices. The assigned staff (FEMA staff or
                          contractors) maintained more subject matter expertise and focused
                          on processing appeals. According to FEMA officials, regions that
                          used assigned staff were more likely to process appeals in a timely
                          manner.

                          FEMA Headquarters Delays

                          Headquarters officials said that second-level appeal decisions
                          generally exceeded the established regulatory timeframes. As
                          shown in table 2, the average number of days for second-level
                          appeal processing has consistently exceeded the 90-day
                          requirement.1 For example, during fiscal years (FYs) 2009 and
                          2010, the average processing times were 194 and 227 days,
                          respectively. During the 2-year period, headquarters issued 178
                          second-level appeal decisions, 16 of which took more than a year
                          to process.


1
 The averages shown in table 2 were calculated after the agency’s tracking system errors were corrected.
See the finding later in this report concerning FEMA’s second-level appeal tracking system.

                    Opportunities to Improve FEMA’s Public Assistance Appeals Process

                                                  Page 5
      Table 2. Average Processing Time for Second-Level Appeals


                                 Fiscal           Average
                                 Year             Number
                                                  of Days
                                  2003              163
                                  2004              139
                                  2005              137
                                  2006              172
                                  2007              223
                                  2008              180
                                  2009              194
                                  2010 *            227

               * FY 2010 from October 2009 through February 2010

               Source: FEMA Headquarters PA appeal tracker reports on issued
               decisions

      Our sample of 40 second-level appeal cases at headquarters
      illustrated that the structure of the PA approval process and the
      complexities of the appeals process contributed to the delays.
      FEMA officials agreed with this observation. After the PA
      program officials prepared and approved draft appeal decisions,
      the cases were sent to the Office of Chief Counsel for review and
      approval. After approval by the Office of Chief Counsel, the
      appeal cases were sent to the Disaster Assistance Directorate front
      office for final review and approval. If any clarification or
      additional support was needed, the cases were returned to the
      various headquarters offices. FEMA officials said that the
      respective reviewing officials were not always available to
      complete reviews in a timely manner because of their other duties.

      FEMA management has not made second-level appeal processing
      a high priority. Various offices involved in the process were not
      given guidelines to complete work within a specific timeframe.
      Also, no overall goals were established to reduce appeal backlog.
      When priorities were established, positive results occurred. For
      example, in February 2010, FEMA headquarters had 63 active
      second-level appeals in process. Four of these appeals had been
      waiting for a decision for more than a year. When FEMA made
      appeals a priority, the backlog of pending appeal cases was quickly
      reduced to 27 cases.


Opportunities to Improve FEMA’s Public Assistance Appeals Process

                             Page 6
                        Regions and headquarters track first- and second-level appeals,
                        respectively. FEMA does not have a single appeals-tracking
                        system to highlight problem cases. A reliable tracking system is
                        needed to ensure that appeals are processed in a timely manner.
                        Without such a system, cases could be misplaced for long periods,
                        adding to the already lengthy appeals-processing time. In one
                        region, records showed that a state mistakenly sent 25 first- and
                        second-level appeals to the regional office rather than the local
                        recovery office. Delays occurred until the recovery office detected
                        the problem and started processing the appeals. Records from
                        other regional offices showed that six second-level appeal cases
                        were misplaced from 10 to 33 months before they were located and
                        normal processing began.

                        The PA appeal process can take longer if the Regional
                        Administrator or FEMA headquarters officials request additional
                        information or technical advice on an appeal in order to reach a
                        decision. Requests for additional documentation or information do
                        not count against FEMA’s region or headquarter processing time
                        standards. The time that passes for applicants to respond is not
                        tracked by FEMA. FEMA officials said that such requests were
                        rare and records are not kept on the frequency of requests or
                        response times. According to FEMA officials, requests for
                        additional documentation or information resulting in delays are
                        rare and more likely to occur at FEMA headquarters than in the
                        regions. FEMA does not keep records on the number of requests
                        or the time period for the delays that occur from the additional
                        requests. As a result, this causes delays in the process but they are
                        not recorded.

                        In December 2009, the Department of Homeland Security Office
                        of Inspector General (DHS/OIG) reported2 that FEMA did not
                        have an agency-wide system for tracking appeals from submission
                        dates to final determinations. In response, FEMA agreed to design
                        an integrated appeals-tracking system. The new system will serve
                        the needs of PA staff in the regions and headquarters. At the time
                        of our review, the system was not in place, and FEMA officials
                        told us it was considered a long-term goal.

                        Conclusion

                        Delays in processing appeals impact the applicant, the state, and
                        FEMA operations. Until an appeal is decided, applicants have to

2
 Assessment of FEMA’s Public Assistance Program Policies and Procedures (OIG-10-26, December
2009).

                  Opportunities to Improve FEMA’s Public Assistance Appeals Process

                                               Page 7
       obtain other sources of funds to complete projects or pay
       contractors. Delays increase state and FEMA administrative costs
       of monitoring appeals and responding to inquiries concerning the
       status of appeals.

Recommendations
       We recommend that the Associate Administrator, Response and
       Recovery:

       Recommendation #1: Develop and implement procedures that—

           �	 Require states to notify the appropriate FEMA region when
              an applicant submits an appeal,
           �	 Require regions to follow up with the states on individual
              appeals that have not been forwarded to the region within
              the required timeframes, and
           �	 Provide adequate staffing to expedite the resolution of
              appeals so that the mandated timeframes are met.

       Recommendation #2: Analyze the headquarters’ second-level
       appeals process and identify opportunities for improved
       effectiveness, such as establishing backlog reduction goals and
       standards for key steps in the process.

       Recommendation #3: Establish realistic, achievable milestones to
       expedite FEMA-wide plans to develop and implement an
       integrated agency-wide appeals tracking system that will provide
       more visibility over the entire appeals process.

Management Comments and Contractor Analysis

       FEMA did not concur with the first two parts of recommendation
       #1. However, FEMA did concur on the third part of the
       recommendation.

       With respect to parts one and two of recommendation #1, FEMA
       said that the regulations do not provide a basis to require states to
       notify regional offices in advance of submitting appeals received
       from applicants to the regional office. FEMA said that the states
       and regions have and will continue to coordinate closely on Public
       Assistance issues, including appeals. FEMA also said that it is the
       state’s responsibility, as a grantee, to forward an appeal to a FEMA
       regional office within the regulatory timeframe.


 Opportunities to Improve FEMA’s Public Assistance Appeals Process

                              Page 8
      We agree that FEMA attempts to work closely with the state
      grantees on Public Assistance issues. However, because our audit
      disclosed that 30% of the appeals received by the state from
      applicants were not forwarded to the regional office within the 60­
      day requirement, we believe the states should be required to notify
      the regional office when an appeal is received. We further believe
      that the regional offices should follow-up on appeals that have not
      been forwarded to the region within the required timeframe.

      With respect to part three of recommendation #1, FEMA said that,
      in addition to its permanent Public Assistance staff at headquarters
      and regional offices, FEMA procured technical assistance contracts
      in 2010 that are available to the regions and headquarters for
      support in preparing first and second appeal responses. FEMA
      said the contractors will help ensure that responses are prepared
      efficiently and completed and within the regulatory timeframes.
      Final decisions on appeals will be made by FEMA and not by
      contractors.

      FEMA partially concurred with recommendation #2. FEMA said
      that by improving the second-level appeals review and concurrence
      process (through staffing additions, contracts, and improved
      tracking systems), the Public Assistance Division reduced the
      appeal backlog of 69 in 2009 to 21 by the end of 2010. FEMA’s
      actions to reduce the backlog have been effective. However, the
      effort must continue or the backlog will likely increase again. In
      this regard, we believe that FEMA should institutionalize the
      emphasis on backlog reduction by setting goals and standards for
      key steps in the process.

      FEMA acknowledges that strong internal coordination is required
      to meet the regulatory timeframes for appeal responses, and will
      continue to identify ways to streamline and improve the
      concurrence process and to establish timeframes for each step of
      the process. However, FEMA did not concur with the
      recommendation to establish separate standards or timeframes for
      individual steps in the process. FEMA said the agency was
      currently performing a Bottom Up Review of the Public Assistance
      program and will fully consider recommendations to improve
      program processes, including second-level appeals. Because
      several FEMA officials with various other job responsibilities are
      involved in the second appeal decision process, we believe that
      separate standards or timeframes would help ensure that everyone
      is held accountable for timely processing action.



Opportunities to Improve FEMA’s Public Assistance Appeals Process

                             Page 9
             FEMA also partially concurred with recommendation #3. FEMA
             said it is transitioning its current internal tracking software
             (WebCIMS) to the DHS approved Intranet Quorum 3 (IQ)
             tracking software. According to FEMA, the IQ will manage
             agency-wide workflow and allow users to create, review or concur
             with memos or documents. Public Assistance headquarters will
             transition processing of second-level appeals as the Agency
             migrates to the new system.

             As a long-term goal, FEMA is considering the development of an
             appeals tracking component within the Emergency Management
             Mission Integrated Environment (EMMIE) database that would
             provide applicants, states, and regions the capability to track the
             status of submitted appeals.

             The procurement of technical support contractors to expedite
             responses to appeals, the identification of ways to streamline and
             improve the appeals process including the establishment of
             timeframes for each step in the process, and efforts to improve
             appeals tracking are positive steps toward improving the timeliness
             of the appeals process.

             However, with respect to parts ones and two of recommendation
             #1, we continue to believe that FEMA should require the states to
             notify the appropriate FEMA region when an applicant submits an
             appeal. We also believe that the regions should follow up with the
             states on individual appeals that have not been forwarded to the
             region within the required 60 day timeframe.

             Within 90-days, the Associate Administrator, Response and
             Recovery, needs to outline specific corrective actions, with
             supporting documentation, requiring the states’ to notify the
             appropriate FEMA region when appeals are received from
             applicants and requiring the region to follow up when delays occur
             at the state-level. The Administrator’s actions need to develop a
             plan to ensure that the states provide appeals received from
             applicants to the regions within the required 60-day timeline.

Second-Level Appeals Tracking and Reporting
     The tracking system used to monitor second-level appeals was inaccurate.
     It did not include the time regional staff takes to forward second-level
     appeal cases to headquarters and used incorrect formulas to calculate
     processing times. As a result, the actual time elapsed in the second-level
     appeals process was understated.


       Opportunities to Improve FEMA’s Public Assistance Appeals Process

                                   Page 10
      Regional Office Second-Level Appeal Processing

      According to 44 CFR 206.206, FEMA headquarters is required to
      provide a decision within 90 days of receipt of an appeal. FEMA’s
      procedures called for the 90-day response time to start when the
      second-level appeal is received in headquarters and entered into
      the database. Based on our discussions with regional and
      headquarters officials, the start of the 90-day period can be
      interpreted in different ways. Some officials said the regulations
      do not require the time spent by the region to process second-level
      appeals to be included in the overall time. Other officials believe
      that because all delays affect the applicant, the second-level
      appeals-processing time should start when the FEMA region
      receives the request.

      Our review of 30 second-level appeals cases completed during FYs
      2009 and 2010 showed that it took an average of about 110 days
      from the time regions received the appeal to the time headquarters
      received it. The delay occurred because headquarters did not
      provide guidance to regional offices on the timeframes expected to
      prepare the second-level appeal package. Guidance was also not
      provided on the extent of review effort expected at the regional
      level. These days were not considered part of the 90-day
      requirement within FEMA’s tracking system. As a result, the 90­
      day required time period was effectively extended to 200 days.

      Incorrect Calculation of Processing Times

      In March 2010, we identified that the second-level appeals tracking
      system was reporting incorrect data to FEMA officials. Our
      review showed that errors were made during the calculation of how
      long it took to process second-level appeals.

      From October 1, 2008, through February 2010, FEMA recorded
      178 decisions. Our analysis of the timeframes for these decisions
      showed that in 129 cases (approximately 70%), the processing
      times were overstated by an average of more than 200 days. We
      provided this information to headquarters officials. They
      concluded that undetected inaccuracies occurred during a software
      conversion. As a result, incorrect formulas were used to calculate
      how long it took to process some of the second-level appeals.
      FEMA changed the formulas, and subsequent reports were
      accurate. The corrected reports were used to compare second-level
      appeals processing delays.



Opportunities to Improve FEMA’s Public Assistance Appeals Process

                            Page 11
       Conclusion

       The tracking system understated the processing time because it did
       not track the time regional staff took to forward second-level
       appeal cases to headquarters. In addition, the processing time
       reported in the tracking system for second-level appeals included
       incorrect formulas, which made the report inaccurate. As a result,
       the processing times reported in the database tracking system did
       not provide a reliable source of information to FEMA officials and
       other interested parties concerning compliance with the required
       90-day processing timelines.

Recommendations
       We recommend that the Associate Administrator, Response and
       Recovery:

       Recommendation #4: Establish time standards for the regional
       work performed on second-level appeals and include this time in
       the 90-day period that FEMA headquarters has to issue a final
       decision on a second-level appeal.

       Recommendation #5: Establish procedures and appropriate
       controls to ensure that the second-level appeals data tracking
       system is reporting accurate data.

Management Comments and Contractor Analysis

       FEMA partially concurred with recommendation #4. FEMA
       interprets 44 CFR §206.206(c)(3), consistent with Section 423 of
       the Stafford Act, to mean that when the Assistant Administrator
       receives the second-level appeal he/she has 90 days in which to
       render a decision regarding that appeal. Second-level appeals often
       identify new issues that were not raised in the first appeal, and
       may include documentation to support those new arguments. The
       regions provide the initial review of second-level appeals and
       supporting documentation and provide a recommendation in the
       Regional Administrator's Memorandum to the Assistant
       Administrator. FEMA said it does not plan to revise timeframes
       in the appeals process beyond what is currently expressed in the
       Stafford Act and appeals regulation.

       FEMA said it will continue to actively identify ways to
       streamline the appeals review process, including reducing the
       time that regions review and transmit second appeals to
       headquarters. For example, FEMA is working to establish an
 Opportunities to Improve FEMA’s Public Assistance Appeals Process

                             Page 12
             electronic file sharing system that will allow regions to transmit
             appeal documents electronically.

             Because all delays affect the applicant, we believe FEMA’s
             interpretation of when the 90-day requirement for second-level
             decisions should start is too narrow. FEMA’s interpretation would
             not include the average of 110 days that it took for the regions to
             forward a second-level appeal to headquarters. The interpretation
             effectively increases the 90-day limit to about 200 days. The
             Associate Administrator, Response and Recovery, needs to
             reconsider the exclusion of regional processing time from the
             required second-level response time. Within 90 days, the
             Associate Administrator needs to outline specific actions that will
             decrease the time taken for processing and responding to second-
             level appeals and develop a plan to ensure that the corrective
             actions are implemented as intended.

             FEMA concurred with recommendation #5. FEMA established a
             new internal appeals tracking system in January 2010. The
             tracking system requires Headquarters PA Division and all
             Regions to submit monthly reports that include a list of first and
             second appeals, the issue and amount disputed, status of appeal
             reviews, and final decisions. This tracking system helps ensure
             accurate reporting on second appeals.

             The establishment of a new internal appeals tracking system in
             January 2010 that requires monthly reports will help ensure that
             accurate reporting on second appeals occurs. In addition, the
             electronic transmission of second-level appeal documents from the
             regions to headquarters will be a positive step in improving the
             timeliness of second-level appeal processing.

             Within 90 days, the Associate Administrator, Response and
             Recovery, needs to provide a plan to ensure that the
             implementation of the proposed actions proceed as intended.

Opportunities to Better Serve PA Applicants
     FEMA needs an effective process for providing feedback on the status of
     appeals to applicants. Applicants said it was difficult to follow the status
     of their appeals, and in some cases they have been unable to obtain their
     status. For several years, FEMA used its website to provide applicants
     and program officials with information on second-level appeal decisions.
     However, FEMA stopped entering new decision information into the site
     in October 2009. As a result, applicants, as well as state and FEMA


       Opportunities to Improve FEMA’s Public Assistance Appeals Process

                                   Page 13
officials, did not have accurate information on the status of appeals or
decisions.

In compliance with the Government Performance and Results Act, the
goal of FEMA’s PA program is to provide and deliver public assistance
efficiently, effectively, and consistently with increased customer
satisfaction. The agency’s strategic plan commits to provide timely
disaster assistance to communities. In accordance with 44 CFR § 206.206,
applicants have an opportunity to request reconsideration of decisions
regarding funding. Officials said that applicants who file an appeal are to
be treated fairly and receive accurate and timely information on the status
of appeals.

        Status of Appeals

        Applicants who filed appeals were critical of FEMA delays and
        had difficulty determining the status of the appeals or the reasons
        for delays. Applicants told us that FEMA’s appeals process was
        not customer friendly. Under the existing appeal structure, the
        state was expected to follow up to resolve applicant inquiries.
        Applicants complained that meaningful feedback was not provided
        because state and FEMA points of contact were frequently not
        familiar with the appeal or not available to help. Delays also
        occurred when new staff members were assigned to review a case.
        The new reviewers required extra time to understand the issues of
        the appeal or sometimes disagreed with the previous reviewer’s
        interpretation of eligibility.

        FEMA has not provided appeal decisions within the timeframes
        required by regulations. Applicants and state officials said the
        appeals process is unfair because applicants are expected to submit
        their appeal actions within regulatory timeframes while FEMA
        takes longer than the required timeframes to make a decision. In
        addition, FEMA does not provide applicants sufficient feedback on
        the status of the appeals.

        At the time of our audit, there was no process in place for
        applicants, states, and FEMA officials to share information on the
        status of appeals. FEMA has plans to develop an agency-wide
        tracking system. However, current plans do not include providing
        applicants and state officials with access to the system. In the
        meantime, applicants and state officials suggested that joint
        meetings to discuss appeals issues would be helpful. The officials
        added that having all parties understand the issues throughout the
        process should help clarify issues, avoid time lost to request and
        review additional documentation, establish a climate for better

  Opportunities to Improve FEMA’s Public Assistance Appeals Process

                              Page 14
      feedback, and reduce delays.

      Long delays and not knowing the status of an appeal have created
      financial problems and impacted applicant operations. In one case,
      an applicant could not close a project because an appeal was still
      pending. The applicant could not sell property and use the
      proceeds to help finance a school system. Another applicant had to
      establish a reserve fund to cover the potential loss of funds if
      FEMA denied the appeal. Other applicants waiting for appeal
      decisions said that they might have to borrow funds to pay
      contractors who provided a service such as debris removal.
      Permanent work (rebuilding hospitals, schools, sewer lines, etc.)
      could be delayed indefinitely until a decision is made on an appeal.

      Applicants who filed appeals also incurred costs of in-house staff
      to manage and follow up on the status of appeals. When long
      delays occurred, the applicants did not recover the extra
      administrative costs from FEMA. Also, some applicants told us
      they used consultants to manage their appeals. Long delays,
      coupled with consulting charges, reduce the benefit of the appeal
      even if the applicant wins the appeal.

      Use of Website

      For several years, FEMA entered second-level appeals information
      into its website. According to FEMA officials, the site provided
      applicants with a source for reviewing the eligibility criteria used
      to arrive at appeal decisions. Having access to documents, such as
      decision letters and case analyses on prior appeal decisions, helped
      applicants decide whether to proceed with an appeal or to prepare a
      better documented appeal package. This information also provided
      guidance to help state and FEMA officials make more accurate and
      consistent appeal decisions.

      FEMA stopped entering new decision information on its second-
      level appeal decisions to its website in October 2009. Officials
      told us that a software-related problem resulted in additional
      appeals information not being posted to the site. At the time of our
      audit, the problem still needed to be corrected.

      FEMA officials are aware that the website does not include current
      data on second-level appeals. Although the decision-related
      documents are being saved, the resources have not been allocated
      to input the data and to ensure that the site reflects complete and
      current data.


Opportunities to Improve FEMA’s Public Assistance Appeals Process

                            Page 15
       Conclusion

       Because the appeals process does not facilitate interaction with
       FEMA applicants, it is difficult for applicants to follow the status
       of their appeals. In some cases, applicants have been unable to
       obtain any status. Furthermore, delays in decisions have resulted
       in additional costs to the applicants, extended financial uncertainty
       concerning project funding, and affected applicant operations. The
       lack of accurate and timely information on the FEMA website
       prevented applicants and state and FEMA officials from having a
       valuable information resource concerning second- level appeal
       decisions.

Recommendations
       We recommend that the Associate Administrator, Response and
       Recovery:

       Recommendation #6: Develop and implement procedures that—

           �	 Establish communication channels to allow PA applicants
              and state officials to interact with FEMA during the appeals
              process concerning the status of appeals, and

           �	 Authorize applicants’ and state officials’ access to the
              tracking system when it is developed.

       Recommendation #7: Provide adequate resources to resolve the
       website software problem and update the site to include all second-
       level appeal decisions.

Management Comments and Contractor Analysis

       FEMA partially concurred with both parts of recommendation #6.
       FEMA said communication channels already exist between states
       and the FEMA regions. Although FEMA is committed to
       continuing to build and strengthen its relationship with states and
       applicants, FEMA does not agree that it should set up lines of
       communications directly with applicants. FEMA said this
       responsibility belongs to the state as the grant administrator.
       However, our audit showed that applicants were not provided
       sufficient feedback on the status of their appeals. Instead of
       communicating directly with the applicant, we believe that FEMA
       should implement a process whereby FEMA, State and applicant
       officials meet to discuss appeal issues. This interactive process

 Opportunities to Improve FEMA’s Public Assistance Appeals Process

                             Page 16
      should enhance better feedback, help reduce appeal processing
      delays, and establish an open channel for communications
      concerning appeals issues.

      FEMA said it is considering the development of an appeals
      tracking system in the electronic tracking system that is used to
      track Public Assistance Program projects from implementation
      to closeout. The inclusion of an appeals tracking system in
      FEMA’s Public Assistance tracking system would allow
      regional offices, the states and applicants the ability to track the
      progress of first- and second-level appeals.

      FEMA concurred with recommendation #7. FEMA acknowledged
      that the online appeals database experienced delays in posting
      second-level appeal decision letters and analyses. FEMA said it is
      working diligently to update FEMA.gov, including the Public
      Assistance portion of the website. The result will be a user-
      friendly, easy to navigate site for the State and applicants to access
      current and past appeal decisions. FEMA will post all past appeal
      decisions after the FEMA.gov website is updated.

      The comments by FEMA are responsive to recommendations #6
      and #7. If properly implemented, the actions identified should
      address the conditions identified during the audit. Within 90 days,
      the Associate Administrator, Response and Recovery, needs to
      provide a plan to ensure that the implementation of the proposed
      actions proceed as intended.




Opportunities to Improve FEMA’s Public Assistance Appeals Process 


                             Page 17 

Appendix A
Purpose, Scope, and Methodology



                          Foxx & Company audited FEMA’s Public Assistance appeals
                          process. The overall audit objectives were to determine whether
                          the agency was processing and reporting appeals in a timely
                          manner and how to improve service to the PA applicants. The
                          specific audit objectives were to—

                               1.	 Evaluate the causes of applicant appeals,
                               2.	 Determine whether FEMA appeal determinations comply
                                   with PA regulations and guidelines and are completed in a
                                   timely manner,
                               3.	 Identify the number of cases where FEMA requested
                                   additional documentation and the time it took to receive it,
                               4.	 Determine whether the process is efficient,
                               5.	 Determine how appeals are tracked in the regions, and
                               6.	 Identify what is delaying processing of appeals and what
                                   improvements FEMA can make to the current process.

                          There are first-level and second-level appeals. Foxx & Company
                          selected three FEMA regions that accounted for more than 80% of
                          the second-level appeals processed at FEMA headquarters during
                          FYs 2009 and 2010.3 Because the regions do not maintain
                          summary data on first-level appeal decisions, we used the same
                          regions for our selection of first-level appeals to review. We
                          selected 30 first-level appeal cases (10 from each region) where the
                          Regional Administrator issued a decision. In two regions, we
                          identified two states from each region that processed the majority
                          of appeal cases and selected five appeal cases from each state. In
                          the third region, the majority of the appeal cases were processed by
                          one state; therefore, 10 appeal cases were selected from that state.

                          We selected 30 second-level appeal cases (10 from each region
                          visited) where FEMA headquarters issued a decision. We also
                          selected 10 second-level appeal cases at FEMA headquarters that
                          were in process during the audit period. Generally, appeal cases
                          with larger disputed dollar amounts, longer processing times, and a
                          mix of denials and approvals were selected. Foxx & Company’s
                          methodology included interviews with officials at FEMA
                          headquarters in Washington, DC, and FEMA regional offices in
                          Atlanta, Georgia; Denton, Texas; and Oakland, California. In the
                          FEMA regions under review, we interviewed state officials
                          involved in the PA appeals process in California, Florida,

3
  The cutoff for FY 2010 was February 2010. This period represented the most current data available at the
time we started our audit.

                    Opportunities to Improve FEMA’s Public Assistance Appeals Process

                                                 Page 18
Appendix A
Purpose, Scope, and Methodology

                     Louisiana, Mississippi, and Texas. From each of these states, we
                     also interviewed two applicants who had requested appeals after
                     being denied PA funding.

                     We examined FEMA policies and procedures, federal laws and
                     regulations, and published reports that provided guidance on the
                     PA appeals process. We obtained first-level appeal data from the
                     three FEMA regions and FEMA headquarters second-level appeal
                     data from the PA appeals database and the PA appeals tracker
                     report. The audit field work was completed in August 2010.

                     We conducted this performance audit pursuant to the Inspector
                     General Act of 1978, as amended, and according to Government
                     Auditing Standards, July 2007 Revision. The standards require
                     that we plan and perform the audit to obtain sufficient, appropriate
                     evidence to provide a reasonable basis for our findings and
                     conclusions based on our audit objectives. We believe that the
                     evidence obtained supports the findings and conclusions based on
                     our audit objectives.




               Opportunities to Improve FEMA’s Public Assistance Appeals Process 


                                            Page 19 

Appendix B
Management Comments on the Draft Report

                                                                         LoS.   l).tp~r."'fDI of   Ilomc-bnd S«urily
                                                                         :!ODe Sln"fl. S\\
                                                                         \\NI"~_, [X.         20412




Malllad3cki
Assislant Inspccwr Gcncral
Ofl1ce of Emergency Managcment Oversight
Ofl1cc of Inspector General
U.S. Department of HOlllcJ:ll1d Sccurity
Washington. DC 20528

Re: FBlIIA's Rcsponse to DIG Draft Report: Oppor/llllitif:.f 10 III/prot'e FEMA       '.f   Pllblir
Aui.fUlIlce A'Jpeah PrtKe.u (09-215-EMO-FEMA)

Dear Mr. Jadacki:

TIle Depanmellt of Homeland Security's Fcdcml Emergency Management Agency (FEMA)
appreciates the opponunity to review and rc.<;pond 10 lhe Department of Homcl;md Securily
(DHS) Office of Inspeclor Gencml (DIG) repon ··Opp0r/lmitit·s to Improt'e FEMA's Public
,1s.\-isltl/lce AplJI!(Ifs PrQC/:ss (OIG Projeci No. 09-215-EMO-FEMA):' FEMA is actively
resolving Ihe issues idcnlificd in Ihe repon,

TIle OIG report analyl.es thc Public Assistance (PA) Program appeals process, The repon focuses on
whcther the Agency processes ;llld reports <lppcals in a timely l1l<lnner. The repon also includes
recommeodations to improvc timeliness in processing ;lppcals. lracking ;ll1d reponing of upPC;lls. and
service to PA applicallls,

The DIG report illdic;llcs thai delays in processing appeal!' impacl the applicanl.lhe SlatC. and FEMA
operations. The DIG repOrt <llso contcnds lhal, unlil an ;lppcal is decided. applicanls have to obtain olher
funding sources to complctc projcCls or pay contactors. In addition, lhe OIG report suggests lhal delays
in the proc~s.~ing of appeals increase State and FEMA ;ldminislrative COSIS of moniloring appeals and
responding 10 inquirics concerning the stalus of appeals.

It is imponam to kcep in mind thallhc PA Program provides supplemental assistance 10 eligible
applicanl~  for Iheir disaster-relatcd cxpcn~s. Further. as pan of the PA Program. the Stale is the grantee
for all funds under the PA progr.llll and administers the funding to applicants. 111e Stille cstilblishcs
communication procedures for providing feedbuck 10 its ;lpplic;lI\t!> regarding the status of PA projects a;;
well as the St;ltu~ of appcab..

FEMA's objective is to respond 10 all apl>cab within the 9().day regulatory timc fmllle.
However. Ihe Agency is also cOlllmitted 10 making delemlin3lions based on a thorough and fair
review of all of the information presented mlhe appcal while ensuring consistenl ;lpplic3Iion of




                     Opportunities to Improve FEMA’s Public Assistance Appeals Process 
 


                                                   Page 20
 

Appendix B
Management Comments on the Draft Report

FEMA's authority under the Stafford Act and implementing regulations. Appeals often consist
of hundreds of pages of documentation and often raise new and challenging policy issues, which
require full consideration.

FEMA has worked diligently for several years to significantly improve the PA appeals process
by (1) hiring additional staff; (2) procuring appeals support contracts; (3) improving the appeals
review and concurrence process; and (4) improving the internal appeals tracking system between
the Regions and Headquarters PA Division.

Additionally, FEMA is currently performing a Bottom Up Review (BUR) of the PA program to provide
a comprehensive assessment to determine if the program fulfills its statutory mission in the most
efficient and effective manner. The BUR will also identify changes needed to streamline the program
and improve program delivery to its customers. The PA appeals process is part of the ongoing BUR and
FEMA will fully consider any recommended changes to improve and streamline the appeals process.

FEMA provides responses to the OIG's recommendations in the following pages.

Processing Delays

Recommendation #1:

   •   Develop and implement procedures that:
       • Require states to notify the appropriate FEMA region when an applicant submits an
       appeal.

FEMA does not concur with this recommendation. Regulations (44 CFR §206.206(c), Appeals, Time
Limits) already require a State to forward an applicant's formal written appeal to the appropriate
Regional Administrator within 60-days of its receipt of the appeal. The regulations do not provide a
basis to require States to notify Regional offices in advance of submitting the appeal itself However,
States and Regions coordinate closely on PA issues including appeals, and will continue to do so.


       • Require regions to follow up with the states on individual appeals that have not been
       forwarded to the region within the required timeframes.

FEMA does not concur with this recommendation. As the Grantee, it is the State's responsibility to
forward an appeal to a FEMA Regional office within the regulatory timeframe. However, as stated
above, FEMA supports and encourages States and Regions to coordinate on all PA issues, including
appeals.


       • Provide adequate staffing to expedite the resolution of appeals so that the mandated
       timeframes are met.

FEMA concurs with this recommendation. FEMA continues to recruit and hire permanent PA staff at
Headquarters and at Regional offices. Additionally, FEMA procured technical assistance contracts in




                  Opportunities to Improve FEMA’s Public Assistance Appeals Process 
 


                                               Page 21
 

Appendix B
Management Comments on the Draft Report

2010 that were available to the Regions and Headquarters for support in preparing first and second
appeal responses. The contractors are qualified to employ technical and programmatic expertise to
ensure that responses are technically sound and consistent with the laws, regulations, and policies that
govern the PA Program. This will help ensure that responses are prepared efficiently and completed
within regulatory timeframes. It is important to note, however, that all final decisions are made by
FEMA and not by contractors.

Recommendation #2:

       •   Analyze the headquarters' second-level appeals process and identify opportunities for
           improved effectiveness, such as establishing backlog reduction goals and standards for
           key steps in the process.


FEMA partially concurs with this recommendation. FEMA has reduced the second appeal backlog that
accwnulated due to an increase in the number of second appeals. In 2009 there was a backlog of69
second-level appeals. By improving the second-level appeals review and concurrence process (through
staffing additions, contracts, and improved tracking systems), the PA Division reduced the appeal
backlog to 21 by the end of20IO.

FEMA acknowledges that strong internal coordination is required to meet the regulatory timeframes for
appeal responses, and will continue to identify ways to streamline and improve the concurrence process
and to establish timeframes for each step of the process. FEMA does not concur with the
recommendation to establish separate standards or timeframes for individual steps in the process.

In addition, as stated above, FEMA is currently performing a Bottom Up Review (BUR) of the PA
program and will fully consider recommendations to improve program processes, including second-level
appeals.

Recommendation #3:

       •   Establish realistic, achievable milestones to expedite FEMA-wide plans to develop and
           implement an integrated agency-wide appeals tracking system that will provide more
           visibility over the entire appeals process.

FEMA partially concurs with this recommendation. FEMA is transitioning its current internal
tracking software (WebCIMS) to the DHS approved Intranet Quorum 3 (IQ) tracking software.
IQ will manage agency-wide workflow and allow users to create, review or concur with memos
or documents. PA Headquarters will transition processing of second-level appeals as the
Agency migrates to the new system. As a long-term goal, FEMA is considering the development
of an appeals tracking component within the Emergency Management Mission Integrated
Environment (EMMIE) database that would provide applicants, states, and regions the capability
to track the status of submitted appeals. These represent FEMA's short-term and long-term
objectives to improve PA appeals tracking through Agency systems.




                  Opportunities to Improve FEMA’s Public Assistance Appeals Process 
 


                                               Page 22
 

Appendix B
Management Comments on the Draft Report

Second-Level Appeals Tracking and Reporting

Recommendation #4:

       •   Establish time standards for the regional work performed on second-level appeals and
           include this time in the 90-day period that FEMA headquarters has to issue a fmal
           decision on a second-level appeal.

FEMA partially concurs with this recommendation. FEMA interprets 44 CFR §206.206(c)(3),
consistent with Section 423 of the Stafford Act, to mean that when the Assistant Administrator
receives the second-level appeal he/she has 90 days in which to render a decision regarding that
appeal. Second-level appeals often identify new issues that were not raised in the first appeal,
and may include documentation to support those new arguments. The Regions provide the initial
review of second-level appeals and supporting documentation and provide a recommendation in
the Regional Administrator's Memorandum to the Assistant Administrator. FEMA does not plan
to revise timeframes in the appeals process beyond what is currently expressed in the Stafford
Act and appeals regulation. However, FEMA will continue to actively identify ways to
streamline the appeals review process, including reducing the time that Regions review and
transmit second appeals to headquarters. For example, FEMA is working to establish an
electronic file sharing system that will allow Regions to transmit appeal documents
electronically.

Recommendation #5:

       •   Establish procedures and appropriate controls to ensure that the second-level appeals
           data tracking system is reporting accurate data.

FEMA concurs with this recommendation. FEMA established a new internal appeals tracking system in
January 2010. The tracking system requires Headquarters PA Division and all Regions to submit
monthly reports that include a list of first and second appeals, the issue and amount disputed, status of
appeal reviews, and final decisions. This tracking system helps ensure accurate reporting on second
appeals.


Opportunities to Better Serve P A Applicants

Recommendation #6:

Develop and implement procedures that:- Establish communication channels to allow PA
applicants and state officials to interact with FEMA during the appeals process concerning the
status of appeals.

FEMA partially concurs with this recommendation. FEMA continues its commitment to build and
strengthen its relationship with States and applicants, and understands the importance of good
communication among all stakeholders. Communication channels already exist between States and
Regions. However, FEMA does not agree that it should set up lines of communications directly with




                 Opportunities to Improve FEMA’s Public Assistance Appeals Process 
 


                                              Page 23
 

Appendix B
Management Comments on the Draft Report

applicants. The State is the grant administrator for all funds under the PA program and provides
technical advice and support to applicants. The State PA Representative is the applicant's designated
point of contact to obtain FEMA assistance, and the State establishes its own protocol for providing
feedback to applicants on the status of appcals.


           • Authorize applicants' and state officials' access to the tracking system when it is
           developed.

FEMA partially concurs with Ihis recommendation. Authorized FEMA and State PA Representatives
can access EMMIE. EMMIE is FEMA 's ck:ctronic tracking system used to track the progress of PA
Project Worksheet (PW) from project implementation to closeout. FEMA is considering the
development of an appeals tracking system in EMMIE to allow Regional Offices, the State and
applicants the ability to track the progress of first- and second-level appeals. However, FEMA does not
plan to provide access to the Agency's inlemal tracking systems, as they contain pre-decisional
infonnation. FEMA remains commilled to responding to appeals within the specified timeframes to the
greatest extent possible. FEMA Regions maintain close coordination and communication with Stutes on
PA issues, including appeals, and will continue to do so.

Recommendation #7:

       •   Provide adequate resources to resolve the website sortware problem and update the site
           to include all second-level appeal decisions.

FEMA concurs with this recommendation. FEMA acknowledges that the online appeals database
experienced delays in posting second-level ;lppeal decision letters and analyses. FEMA is working
diligently to update FEMA.gov, including the PA portion of the website. The result will be a user-
friendly, easy to navigate site for the Sialc and applicants to access current and past appeal decisions.
FEMA will post all past appeal decisions after the FEMA.gov website is updated.

Once again, thank you for the opportunity to comment on the draft report. The Department of
Homeland S<.."Curity and the Federal Emergency Management Agency look forward to working
with you on future homeland security and emergency management engagements.



                                      M-J:-       <;  .;>'~           fW-....-
                                      David Kaufman
                                      Director
                                      Office of Policy and Program Analysis




                    Opportunities to Improve FEMA’s Public Assistance Appeals Process 
 


                                                  Page 24
 

Appendix C
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary, Management

                      Federal Emergency Management Agency

                      Administrator
                      Chief of Staff
                      Associate Administrator, Response and Recovery
                      Deputy Associate Administrator, Response and Recovery
                      Chief Financial Officer
                      Director, Office of Management
                      FEMA Audit Liaison (Project Number 09-215-EMO-FEMA)

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                       Opportunities to Improve FEMA’s Public Assistance Appeals Process 
 


                                                    Page 25
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
